<html>
<title> - [H.A.S.C. No. 112-91]UNITED STATES MARINE CORPS ACQUISITION AND MODERNIZATION</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                                     

                         [H.A.S.C. No. 112-91]

 
        UNITED STATES MARINE CORPS ACQUISITION AND MODERNIZATION

                               __________

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           NOVEMBER 16, 2011


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     
  

                  U.S. GOVERNMENT PRINTING OFFICE
72-415                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4522352a05263036312d2029356b262a286b">[email&#160;protected]</a>  


              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                 ROSCOE G. BARTLETT, Maryland, Chairman
FRANK A. LoBIONDO, New Jersey        SILVESTRE REYES, Texas
JOHN C. FLEMING, M.D., Louisiana     MIKE McINTYRE, North Carolina
TOM ROONEY, Florida                  JIM COOPER, Tennessee
TODD RUSSELL PLATTS, Pennsylvania    GABRIELLE GIFFORDS, Arizona
VICKY HARTZLER, Missouri             NIKI TSONGAS, Massachusetts
JON RUNYAN, New Jersey               LARRY KISSELL, North Carolina
MARTHA ROBY, Alabama                 MARTIN HEINRICH, New Mexico
WALTER B. JONES, North Carolina      BILL OWENS, New York
W. TODD AKIN, Missouri               JOHN R. GARAMENDI, California
JOE WILSON, South Carolina           MARK S. CRITZ, Pennsylvania
MICHAEL TURNER, Ohio                 KATHLEEN C. HOCHUL, New York
BILL SHUSTER, Pennsylvania
DOUG LAMBORN, Colorado
               Jesse Tolleson, Professional Staff Member
                  Doug Bush, Professional Staff Member
                     Scott Bousum, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Wednesday, November 16, 2011, United States Marine Corps 
  Acquisition and Modernization..................................     1

Appendix:

Wednesday, November 16, 2011.....................................    21
                              ----------                              

                      WEDNESDAY, NOVEMBER 16, 2011
        UNITED STATES MARINE CORPS ACQUISITION AND MODERNIZATION
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bartlett, Hon. Roscoe G., a Representative from Maryland, 
  Chairman, Subcommittee on Tactical Air and Land Forces.........     1
Reyes, Hon. Silvestre, a Representative from Texas, Ranking 
  Member, Subcommittee on Tactical Air and Land Forces...........     8

                               WITNESSES

O'Donohue, BGen Daniel J., USMC, Director, Capabilities 
  Development Directorate, Combat Development & Integration, U.S. 
  Marine Corps; BGen Frank L. Kelley, USMC, Commander, Marine 
  Corps Systems Command, U.S. Marine Corps; and William E. 
  Taylor, Program Executive Officer Land Systems, U.S. Marine 
  Corps..........................................................     3

                                APPENDIX

Prepared Statements:

    Bartlett, Hon. Roscoe G......................................    25
    O'Donohue, BGen Daniel J., joint with BGen Frank L. Kelley 
      and William E. Taylor......................................    30
    Reyes, Hon. Silvestre........................................    28

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Bartlett.................................................    41
    Mr. McIntyre.................................................    41
    Mr. Wilson...................................................    41

Questions Submitted by Members Post Hearing:

    Mr. Bartlett.................................................    45
    Mr. Wilson...................................................    49
        UNITED STATES MARINE CORPS ACQUISITION AND MODERNIZATION

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Tactical Air and Land Forces,
                      Washington, DC, Wednesday, November 16, 2011.
    The subcommittee met, pursuant to call, at 2:00 p.m. in 
room 2118, Rayburn House Office Building, Hon. Roscoe G. 
Bartlett (chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. ROSCOE G. BARTLETT, A REPRESENTATIVE 
FROM MARYLAND, CHAIRMAN, SUBCOMMITTEE ON TACTICAL AIR AND LAND 
                             FORCES

    Mr. Bartlett. Good afternoon. My colleagues are delayed, 
but we want to be respectful of your time. Your testimony will 
be part of the permanent record of course, but we want to 
begin.
    The Tactical Air and Land Forces Subcommittee meets today 
to receive testimony on Marine Corps Ground Force Acquisition 
and Modernization Programs. We welcome our distinguished panel 
of witnesses, Brigadier General Frank Kelley, Commander of 
Marine Corps Systems Command; Brigadier General Daniel 
O'Donohue, Director, Capabilities Development Directorate, 
Combat Development and Integration; Mr. William Taylor, Program 
Executive Officer Land Systems, U.S. Marine Corps.
    Of the estimated 210,000 military service personnel 
deployed in Iraq and Afghanistan, approximately 130,000 are in 
Afghanistan, and out of this number 21,000 are marines. More 
than 6,200 Americans have given their lives, and more than 
46,000 have been wounded, in Iraq and Afghanistan since 
September 11, 2001.
    This is the fourth in a series of hearings the subcommittee 
is holding for the purpose of updating our members on the 
budget request for fiscal year 2012 and to help better 
understand the potential impact of the Budget Control Act of 
2011 on our military capability and deployed forces. The 
ultimate impact of the Budget Control Act on DOD funding next 
year and over the next 10 years remains a major concern of this 
subcommittee.
    As I have stated before, major reductions in the Federal 
budget need to be a major element of correcting the Federal 
deficit. The Department of Defense must share in a fair and 
balanced way in those reductions, and that process is already 
taking place under the Budget Control Act of 2011, with nearly 
$500 billion in cuts planned for DOD [Department of Defense] 
over the next 10 years. If the Administration had first 
reconsidered the national military strategy based on the likely 
resources to be available, the changes that are having to be 
made by DOD in acquisition programs could be better justified, 
but it appears we will only have a new national military 
strategy after the fact.
    Under the sequestration provision of the Budget Control 
Act, up to a total of $1 trillion over 10 years could be 
possible under what Secretary Panetta has called the ``doomsday 
mechanism.'' As recently as this week, Secretary Panetta 
indicated that such a reduction would be, and I quote, 
``devastating for the Department.'' Secretary Panetta has 
further indicated a $1 trillion reduction possible under the 
Budget Control Act sequestration provision would amount to 23 
percent if the President exercised the authority to exempt 
military personnel. Under current law, the reduction would have 
to be applied equally to each major investment and construction 
program. And I am not sure how you build three-fourths of an 
aircraft carrier.
    Finally, the Secretary noted that between 2013, ``Cuts 
under a maximum sequestration would equal about $100 billion a 
year compared with the fiscal year 2012 plan. We would have the 
smallest ground force since 1940, the smallest number of ships 
since 1915, and the smallest Air Force in history. The threat 
to our national security would not be reduced. We would have to 
formulate a new security strategy that accepted substantial 
risk of not meeting defense needs.'' This ends his quote.
    Today, we will significantly address Marine Corps ground 
force acquisition and modernization programs. In order to 
perform their missions, whether home or abroad, these marines 
must be adequately equipped with the right gear to maximize 
their combat effectiveness and provide for their best 
protection possible. We cannot lose focus of this objective. 
The subcommittee expects to receive an update from the 
witnesses as to what changes may have to be made in their 
proposed acquisition programs in fiscal year 2012. We would 
like to know the views of our witnesses on what the potential 
impacts to Marine Corps capabilities are, particularly in light 
of the possible reductions in the Marine Corps procurement and 
R&D [Research and Development] budgets over the next 10 years. 
We also hope to gain a better understanding from our witnesses 
on how potential funding reductions would be apportioned for 
their programs and how these funding reductions could 
potentially impact Marine Corps modernization programs and the 
approximately 21,000 marines currently serving in Afghanistan.
    One major concern is understanding the potential impact of 
budget changes on the affordability of the Marine Corps' ground 
combat and tactical vehicle modernization strategy. The 
subcommittee expects to gain a better understanding of the 
processes used by the Marine Corps in determining what is good 
enough in terms of their combat and tactical vehicle portfolios 
given the austere fiscal environment projected for the next 10 
years. What metrics are the Marines using to determine how much 
modernization is needed for the combat and tactical force 
fleets, and will the Marine Corps ultimately be able to afford 
its currently projected ground vehicle modernization strategy?
    I would like to now turn to my good friend on the Democrat 
side to see if he has an opening statement or comments.
    [The prepared statement of Mr. Bartlett can be found in the 
Appendix on page 25.]
    Mr. Critz. Well, I appreciate that, Mr. Chairman. No real 
opening comments. I don't want to take up too much time. I want 
to get to the witnesses' testimony. But you know, as we all sit 
here, obviously sequestration and what next year's budgets and 
what we are going to be facing are certainly a top priority to 
us. And we are anxious to hear your testimony on the strategy 
going forward. We had a hearing with the Service chiefs a 
couple of weeks ago, and still talking about working through 
the cuts to the budget from the CR [Continuing Resolution] from 
earlier this year, without a plan for what is going to happen 
if we hit sequestration or certain budgets looking forward.
    So we have some major issues we have to face. But I 
appreciate the opportunity, and I yield back.
    Mr. Bartlett. Thank you very much. I ask unanimous consent 
that non-subcommittee members, if any, be allowed to 
participate in today's hearing after all subcommittee members 
have had an opportunity to ask questions. Is there objection? 
Hearing none, non-subcommittee members will be recognized at 
the appropriate time for 5 minutes.
    We will proceed with the panel's testimony and then go to 
questions. Without objection, all witnesses' prepared 
statements will be included in the hearing record. General 
O'Donohue, please proceed with your opening remarks.

    STATEMENT OF BGEN DANIEL J. O'DONOHUE, USMC, DIRECTOR, 
  CAPABILITIES DEVELOPMENT DIRECTORATE, COMBAT DEVELOPMENT & 
  INTEGRATION, U.S. MARINE CORPS; BGEN FRANK L. KELLEY, USMC, 
COMMANDER, MARINE CORPS SYSTEMS COMMAND, U.S. MARINE CORPS; AND 
WILLIAM E. TAYLOR, PROGRAM EXECUTIVE OFFICER LAND SYSTEMS, U.S. 
                          MARINE CORPS

    General O'Donohue. Thank you, sir. Chairman Bartlett, 
Congressman Critz, and distinguished members of the panel, it 
is an honor to be here. On behalf of all marines, their 
families, and this team before you, thank you for your 
extraordinary support. This will be the one opening statement 
for the team here, and then we will proceed to questions, sir.
    The Marine Corps is the Nation's expeditionary force in 
readiness. As such, we are prepared for all manner of crises, 
ensure access for the joint force and the interagency, and by 
being ready, mitigate national risks during a period of fiscal 
retrenchment.
    Ten years ago today, under circumstances no one predicted, 
4,400 marines and six amphibious ships were assembling to 
strike Al Qaeda after the horrific acts of 9/11. On short 
notice they rapidly concentrated from globally dispersed 
forward engagement missions to attack hundreds of miles from 
the Arabian Sea to Kandahar, and on to Kabul. No other force 
had the required readiness, strategic mobility, and self-
sustainment to respond so quickly and decisively. Their 
tactical mobility extended the operating area beyond the 
enemy's capacity to cope.
    This dynamic ability, at a moment's notice, to shape, 
deter, defeat, and deny our enemy sanctuary is emblematic of 
the crisis response capabilities that we continue to develop in 
the current and future force. Our unequivocal top priority is 
supporting our 21,000 marines and sailors fighting in 
Afghanistan, and 10,000 more that are forward deployed 
worldwide. With the continuing support of Congress and a rapid 
fielding process, our marines in combat are well equipped for 
the current fight even as the enemy adapts.
    At the same time, in stride we are transitioning to our 
role as the post-OEF [Operation Enduring Freedom] expeditionary 
force in readiness. In doing so, we will accept risks and 
extended ground operations, and reshape the Marine Corps for 
scalable crisis response missions such as counterterrorism, 
counterproliferation, disaster relief, rescuing Americans, 
prioritized security cooperation, and major contingency 
operations, and reinforcing our allies. While still globally 
responsive, we will rebalance our force posture back to the 
Pacific as we withdraw from OEF.
    Our judicious modernization strategy supports this force 
while recognizing fiscal constraints. Our spare budget focuses 
only on what is good enough and what is absolutely required. 
The Marine Corps' entire budget, to include supporting Navy 
accounts, is only 7.8 percent of DOD's. Our modernization 
priorities are the Joint Strike Fighter and MV-22, and an 
affordable amphibious combat vehicle, a balanced ground combat 
and tactical vehicle portfolio, to include the JLTV [Joint 
Light Tactical Vehicle], and Navy amphibious ships.
    This testimony addresses ground force modernization, which 
is 14 percent of our budget and just .6 percent of DOD's. Our 
ground procurement account is approximately $2.0 billion a 
year. Fiscal constraints on the relatively small ground 
modernization can have a disproportionate impact. Our top 
ground priority is the amphibious combat vehicle. A JLTV 
addresses shortfalls for select light combat vehicles which 
perform our most demanding missions.
    For our entire portfolio, and especially the amphibious 
combat vehicle and JLTV, the Marine Corps, working with the 
Department of Navy, has taken an aggressive and innovative 
approach, distinguished by integrating mature technology, 
stressing affordability as a key performance parameter, 
conducting comprehensive system engineering and cost analysis, 
creating a transparent and open dialogue with industry, OSD 
[Office of the Secretary of Defense], and Congress, employing a 
streamlined acquisition process, with an emphasis on 
competition, and most importantly, at inception creating an 
integrated requirements and acquisition team that makes cost-
informed trades in requirements. The acquisition requirements 
team testifying before you today works together daily and at 
every step. We are completely integrated, and we ensure best 
value for the Nation for essential capability.
    Thank you for the opportunity to testify.
    [The combined prepared statement of General O'Donohue, 
General Kelley, and Mr. Taylor can be found in the Appendix on 
page 30.]
    Mr. Bartlett. Thank you, General. I understand that you 
have the only oral testimony, that all three of you are 
available for questions. Is that correct?
    General O'Donohue. Yes, sir.
    Mr. Bartlett. Thank you. As is my usual practice, I will 
reserve questions until the other panel members, including our 
guest panelists, have had an opportunity to ask their 
questions, hoping that my questions will have been asked by the 
other panel members. So I turn now to Mr. Critz.
    Mr. Critz. Thank you, Mr. Chairman. General O'Donohue, 
General Kelley, and Mr. Taylor, thank you so much for being 
here today. Thank you for your service to our country. I 
actually have just a couple of quick questions, and then I will 
allow other members to talk.
    I am heartened by the strategy that the Marine Corps is 
working with the Army on the JLTV program to try to move that 
quicker and come to a resolution. And it brings up an issue, is 
that the remote weapons station that sits on top of a lot of 
Army vehicles is something that the Marine Corps hasn't really 
looked at in the same way. And I am just curious as to as you 
move forward, the CROWS [Common Remotely Operated Weapon 
Station] it is called on the Stryker vehicles, it is on the 
Humvees [High Mobility Multipurpose Wheeled Vehicle], and I am 
wondering because of all the technology advancements that have 
been made because of the Army's use of it if the Marine Corps 
is looking at the CROWS as being part of any system as they go 
forward on their vehicles.
    Mr. Bartlett. Excuse me, they have not provided us with the 
world's best microphones. If you could hold those very close to 
your mouth, we will hear you better. Thank you.
    General O'Donohue. Sir, from the requirements perspective, 
particularly for the amphibious combat vehicle, we have a 
requirement for lethality. We have studies to look at the best 
way do it, to include remote weapons systems. So it is in the 
consideration of Marine Corps planning. We work closely with 
the Army on everything they do, to look at things that we can 
spiral into our programs in every aspect. We have the Army and 
Marine Corps Board that works at every level to make sure we 
are sharing what works between the two Services. So we 
certainly have a strong look at lethality, particularly for the 
amphibious combat vehicle and remote weapons stations. We do 
not have a decision yet on it though, sir.
    Mr. Critz. Okay. It won't be on the amphibious vehicle. It 
is on the JLTV, it will be on Stryker and those types. So it is 
the land-based systems more so than underwater.
    General O'Donohue. Yes, sir.
    Mr. Critz. And this is an issue that I am still trying to 
grasp, and the reason I bring up the CROWS is because of the 
IED [Improvised Explosive Device] issues that we have, and 
snipers. It certainly helps in the safety of our men and women. 
But one of the issues that I am still trying to grasp, and I 
can't really get a hold on, is, you know, we are in a budgetary 
scenario now where everyone is looking to pinch pennies. And 
the move from the Humvee to the JLTV program, I am trying to 
understand what the Marine Corps' plan is. As I look at your 
chart and you are going from approximately 25,000 now down to 
12,500 in 2014, it looks like the JLTV starts to come online 
2017, 2018. And, you know, I saw in some of the reporting as 
well that the recapping of the Humvee is about half the price 
of building new. So there is a financial benefit to this. So I 
just want to know what is the Marine Corps' plan, and how is it 
that it is going to impact your budget, 14 percent of your 
budget being ground vehicles? What is the impact to your 
budget, and where are we going to see--are we going to see some 
pinch points here?
    General O'Donohue. Sir, I will start and then we will pick 
it up on the acquisition side. From the requirements 
perspective, we have scrubbed our light combat vehicles. We 
started with a base of about 26,000. We have reduced that by 
8,000. We have gone through and leveraged based on the force 
structure review, looking at the expeditionary force and 
readiness. We have cast a post-OEF Marine Corps which is not 
for extended campaigns ashore, but to be a crisis response 
force. And as we looked at the missions and as we come from a 
202,000 Marine Corps to about 186,800 we took a corresponding 
look at vehicles. And the first step towards efficiencies was 
to remove that amount of the requirement. That amounted to 
about 8,000 vehicles. That left about 18,600 in the light 
category. These are vehicles that we can't take off the FOB 
[Forward Operating Base] now. The MRAP [Mine Resistant Ambush 
Protected vehicle] was a substitute in a high IED threat, but 
isn't applicable in places we might go otherwise. So we 
addressed that base of 18,600. We took a small subset of that, 
about 5,500 vehicles, and these are the ones that shoot, move, 
and communicate forward. They have the most demanding mission 
profile. And these are the ones that we are looking for the 
JLTV.
    So we have looked at selective aspects of the portfolio. We 
are going to manage just those high priority ones for the JLTV, 
and then we are going to sustain the Humvee fleet. And we will 
look at a process of, for the remaining bulk of the majority of 
the fleet, those not modernized by the JLTV, and have a reduced 
mission profile, we will do a sequential modernization. We will 
buy up front those in the most need and most demanding profile, 
then we will hit our amphibious combat vehicle. And then at the 
back end of that, we are looking at the late 2020s, those 
vehicles we sustained over that period, the bulk of them, about 
13,000 that you talked about, we would be looking at 
modernization in the late 2020s.
    Mr. Taylor. I will add that we have looked at the business 
case between the two programs. And I would respectfully 
disagree that Humvee recap would equate to about half the cost. 
Our best estimates of what it would take to overcome the 
engineering deficiencies in order to provide a durable Humvee 
range somewhere between 240 to 260 K. So at that cost you are 
bumping up against the cost of a new vehicle that would provide 
much more capability.
    We have also done some durability testing on the Humvee. 
And what we found is extreme engineering issues over their 
designed gross weight. These have led to cracks in everything 
from the suspension, to radiator mounts, to even the frame 
itself. And one of the inherent design features of the original 
Humvee, as designed, was to provide a torsional twisting in the 
frame. We lose that as we try to beef up the Humvee through 
rigid measures like capsules or anything like that.
    So my point here is that the procurement costs alone are 
bumping up against a new vehicle cost, yet we haven't even 
begun to scratch the surface on what a Humvee recap might cost 
us ultimately in O&S [Operating and Support] costs.
    General O'Donohue. Sir, just to follow up on the 
requirements aspect of it, a Humvee recap does not meet the 
requirement that the JLTV will. We have a requirement for a 
strategic transportability, mobility, protection, and payload. 
And while we can get any one of those elements in a lighter 
vehicle, we can't get the full range of it. So a Humvee recap, 
which the Marine Corps is not pursuing, would not meet the 
requirement.
    Mr. Critz. Thank you. I yield back.
    Mr. Bartlett. Thank you. Ms. Hartzler.
    Mrs. Hartzler. Thank you, Mr. Chairman. Thank you, 
gentlemen, for your service.
    I just wanted to start off asking just general questions 
about the impacts of the budget. So how are the DOD and the 
Department of Navy's implementation of the Budget Control Act 
of 2011 potentially impacting the Marine Corps acquisition and 
modernization programs?
    General O'Donohue. We have addressed the fiscal austerity 
with a current program that reflects the cuts proposed by the 
President. And what we have done is take sequential 
modernization. We have carefully timed an initial buy of JLTVs, 
a subsequent buy of ACV, the amphibious combat vehicle, which 
is our number one priority, and then we will follow with JLTV 
and modernization over a period of we are talking about 20 
years. That becomes unhinged by delay for any reason. The 
continuing resolution, if we are not able to execute these 
accounts and we don't get special authorization, or we get 
something as severe as sequestration, what we are going to do 
is create a bow wave of requirements at the back end that are 
difficult to handle. Again, we have a small account for 
modernization. There is a disproportionate impact if we have to 
absorb something bigger than already planned. And then I think 
larger and more strategically, we unhinge strategy and ways and 
means. And there probably will have to be a relook at the OSD 
level. And again, the Marine mission is to provide the 
insurance, be the kind of the ready force, which requires an 
O&M [Operations and Maintenance] expenditure, kind of keeping 
faith with people and having the force structure to allow us to 
do the job, and the judicious modernization to field that force 
to be a force in readiness. That strategy becomes unhinged if 
we take a blind proportional reduction.
    Mrs. Hartzler. Absolutely. I see in the chart that you 
provided that we are down to 850 MRAPs now compared to 2,225 in 
2009. Is that correct?
    General O'Donohue. Ma'am, we have about 4,000 currently on 
the battlefield. We have a plan to reduce to something about 
2,500. And of those, those are divided in two parts. We have an 
enduring mission for the MRAPs and the MATVs [Mine Resistant 
Ambush Protected All Terrain Vehicle] for about 1,100 or so 
vehicles. These are for engineers, it is for EOD [Explosive 
Ordnance Disposal], for those really at risk and can afford to 
be roadbound. We have for the remaining balance, these will be 
things that we preserve that could be used in case we were in 
the unusual circumstance that we need the MATV, either a 
counterinsurgency or where the mobility limitations of the MATV 
are suitable. So we don't see it as a general purpose fleet 
vehicle. We see, one, that we have a selective group that we 
are able to equip a force if we had the special circumstances 
where the MATV is appropriate, ma'am.
    Mrs. Hartzler. Okay. Thank you. As far as the warfighter, I 
am always concerned about their safety, the weight of their 
total gear that they carry, their body armor. And I just want 
to ask a couple questions about that first regarding them. The 
vehicle, the Stryker, I know the Army has been testing an 
improved version of the Stryker with a double-V hull for 
deployment to Afghanistan. I have seen something very similar 
at Fort Leonard Wood, which is in my district, and I know that 
has been helpful. So what is the Marine Corps doing to improve 
the survivability of its light armored vehicle fleet?
    Mr. Taylor. We are looking across the entire spectrum of 
technology that is available, to include what the Army is 
doing. This will be part of the development process of some of 
our new amphibious vehicles. So we are looking at the entire 
spectrum of what is available and mature.
    Mrs. Hartzler. That is great. What about, what do you think 
is a reasonable weight for body armor? Can we achieve adequate 
protection with less weight?
    General Kelley. Ma'am, I believe that we can. We continue 
to challenge industry to provide anywhere from a 10 to 20 
percent reduction in body armor. One of the things that I do 
think that we have done as a Marine Corps proactively, and that 
is provided some options, alternatives for commanders out in 
the field for what type of body armor that they would like 
their marines to be wearing. So we have the improved modular 
tactical vest (IMTV) that is about a 33-pound vest, obviously 
provides more comprehensive protection. And that is about a 3-
pound reduction in the modular tactical vest that we produced 
before that. We have also allowed commanders in the field to 
dictate what level of protection their marines will wear. And 
that is at the Lieutenant Colonel level and above for their 
battalions. So the real choice is not between the old vest and 
the new vest, but it is really between this scalable approach 
to body armor. I have already discussed about the IMTV, or the 
improved modular tactical vest. That is going to be, another 
option there is going to be the scalable plate carrier, which 
is about a 21-pound solution in terms of providing protection. 
Obviously, it has got less material, provides the ventilation 
that is one of the areas where we have discovered that that 
causes some fatigue. So we are talking about something that is 
about 33 pounds, or choosing to go down to, you know, about 21 
pounds.
    Mrs. Hartzler. Thank you very much. And thank you, Mr. 
Chairman.
    Mr. Bartlett. Thank you. I would now like to turn to my 
good friend and ranking member, Mr. Reyes, who this afternoon 
was a victim of Washington traffic, which I understand may now 
have eclipsed Los Angeles traffic as the worst in the Nation. 
Mr. Reyes.

STATEMENT OF HON. SILVESTRE REYES, A REPRESENTATIVE FROM TEXAS, 
  RANKING MEMBER, SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

    Mr. Reyes. I can give you personal testimony that having 
been in L.A. [Los Angeles] this was as bad as it gets. I think 
part of it is the rain and the complications that it brings. So 
I wanted to apologize for being late and not being here for 
your opening statement. Oh, and Mr. Chairman, can I ask 
unanimous consent to enter my statement for the record?
    [The prepared statement of Mr. Reyes can be found in the 
Appendix on page 28.]
    Mr. Reyes. Thank you. I did read your statement last night. 
And I wanted you to know that when you made reference to the 10 
years ago, the 2 Marine expeditionary units of 4,400 Marines 
going into Afghanistan and working with the Special Operations 
Forces that were there, I happened to have had the opportunity 
to go with one of our chairmen at the time, Chairman Hobson, we 
were actually in Tashkent because of discussions about the 
opening of the K2 [Karshi Khanabad] facility, but we did get an 
opportunity to actually go and see some of those marines and 
the Special Operations folks there. And it made us all very 
proud the way that we were working with the Northern Alliance. 
So I wanted you to know that.
    And coincidentally, last week, having been in the district 
and going to several Veterans Day commemorations, one of the 
questions that I was asked, and this was by a marine who was--
we were doing a Homes for Troops, where one of the marines, 
there was a home that was built specifically for him because he 
was a double amputee, so we were there, but one of the marines 
that was there for that ceremony was asking me if we had any 
plans--and this all goes back to everyone talking about the 
budget, and saving money, and concerned about their retirement 
and all these kinds of issues--so he was asking me, he says do 
we have any plans to integrate the uniforms? At one point the 
Army and the Marine Corps had the same uniforms. And he said 
today we have different uniforms than the Army does. This is 
him talking. He says it makes sense to us to save money by the 
Army going to the Marine uniform. I said, okay, that makes 
sense to have one uniform. I am not sure the Army would agree 
that it be the Marine uniform. But be that as it may, do we 
have any plans to do that any time in the future? Because I 
didn't know the answer to that. And I haven't had a chance to 
ask any of my colleagues here on the committee if we were even 
contemplating that. But I guess for 10 years now, according to 
him, we have had different uniforms. And they are similar, but 
not exactly alike. And are there uniqueness or unique things to 
the Marine uniform versus the Army or vice versa?
    General O'Donohue. Sir, when it comes to requirements, the 
Marine Corps and the Army, wherever their mission profiles 
converge, collaborate. In the case of the uniform, the Marine 
Corps has picked, as we do with the mobility for our vehicles, 
the places that we think we are going to be most likely 
deployed, and we created a uniform for that independently. And 
the Army has done its own mission analysis. And there are areas 
we converge, like the JLTV. There are other areas where the 
mission requirements are different. I don't know of any move to 
have a similar--there have been discussions I think outside. 
But the Army and the Marines both look at their requirements. 
And in this one, they obviously came up with different 
solutions. There is nothing that prohibits a single uniform 
except, again, the mission profiles that we both have. In some 
areas they overlap, and others they are distinct.
    Mr. Reyes. Mr. Chairman, that may be something we want to 
either look into or consider, which brought this question up. 
Have the Marines participated in the network integration 
exercises with the Army?
    General O'Donohue. We are on the second one, which is right 
now. In fact, tonight I fly out there to observe both the Army 
and the Marines. So the first one that went off we were in 
observer status. This second one we are participating. And as 
we get units back from Afghanistan and have more depth, we will 
participate fully. There have been discussions at the Vice 
Chief, Assistant Commandant Marine Corps both saying this is an 
area of collaboration. So senior leadership is fully behind it. 
My responsibilities are in capabilities development. And I will 
be there tomorrow.
    Mr. Reyes. Great. Well, thank you. Mr. Chairman, that is 
all I have for the moment. I yield back. Thank you all very 
much.
    Mr. Bartlett. Thank you. Mr. Runyan.
    Mr. Runyan. Thank you, Chairman. And gentlemen, thank you 
for your service.
    Just a quick question about the JLTV, learning our lessons 
from what we needed from the Humvee, what we need from the 
MRAP. And knowing that you guys aren't talking about it, but, 
you know, up-armoring the old Humvees to make them more 
sustainable and be able to push that off. In the procurement 
process, are we putting in room to grow in the JLTV so we don't 
run into this situation as soon in the future?
    General O'Donohue. Again, as I mentioned before, Humvee 
recap, and we have had a lot of experience with it, we have 
done a lot of experimentation and looked at that problem hard. 
A vehicle in the category of 16,500 pounds or so will not give 
us all the characteristics to include payload. And that is one 
of the key distinguishing characteristics between the JLTV and 
any Humvee recap. So the growth path in every respect is higher 
with the JLTV. So as we look at making an investment for a 
vehicle that we are going to have for decades, a growth path is 
one of the key considerations. And that is shown even in 
specific of reliability. There is an O&S cost associated with 
that. If you are at a vehicle at the very edge of its 
performance characteristics, it starts losing mobility, starts 
losing transportability, it starts having maintenance problems. 
And then you don't have the payload to get the mission done. So 
a key distinguishing factor between the JLTV, and the reason we 
are going for it, is in fact payload and that growth for a 
vehicle that we are going to have to have for quite some time, 
sir.
    Mr. Runyan. Yes. And going back to MRAPs and MATVs, have 
you had any experience with parts and getting those actually 
out in the theater?
    General Kelley. Sir, no, we haven't. Actually, the MRAPs 
are being well supported. We certainly want to thank Congress 
for all the help and support that they have provided us there. 
As you know, on the MATV side of the house, while we continue 
to respond to the threat, we come up with fixes that will help 
provide safety on the MATV side of the house. And we are 
currently in the middle of installing what is called the UIK 
[Underbody Improvement Kit], which is an improvement package 
that will help, not only help with the overall vehicle safety 
but also the passengers inside the vehicle. And we are on path 
to continue with those upgrades. One issue is tires for all of 
our tactical vehicles, and industry is performing well in this 
regard with the larger R-2000 tires.
    Mr. Runyan. Going on to obviously what is going to be our 
largest medical issue of this combat, TBI [Traumatic Brain 
Injury], I know the Army has taken a program to actually in 
some cases have sensors in the helmet to predetermine that. Are 
you guys a part of that program and/or looking into it?
    General O'Donohue. In every respect. In every vehicle. We 
have ways of measuring blast, which is a key. The idea to 
protect mobility, both dismounted and mounted, is going to be a 
factor, obviously in this war and future ones. And how you 
measure that. And one of the most pernicious aspects of it is 
the mild TBI. The severe symptoms are ones that we are first on 
in collaboration with the Army. It is the ones that are very 
difficult to detect that sometime have the appearance of a 
concussion but have long-standing consequences. And that area 
is a particular focus. So in every way, from the Commandant on 
down this is the issue of this war. And it is one that we are 
working closely with the Army, sir.
    Mr. Runyan. I thank you for that, because it is--I also sit 
on the VA [Veterans' Affairs] Committee. So it is going to be 
one that is going to be a challenge, as we are still dealing 
with Agent Orange from the Vietnam era also. So thank you for 
that.
    Also dealing with, you know, there has been complaints 
regarding the helmet pad suspension being too hard and it has 
had occasion to fall apart. Have we looked at ways to enhance 
that? I know myself, spending 14 years in the National Football 
League, that having uncomfortable head gear doesn't make your 
job any easier.
    General Kelley. Sir, I have not personally heard of anybody 
coming to me and complaining about the helmet mounting system. 
As you know, we have the Team Wendy suspension system in the 
helmets that we are currently fielding. And also that is the 
plan for the ECH, the enhanced combat helmet. We are working 
closely with the Army, Natick Soldier Systems Center, and also 
with PEO [Program Executive Office] Soldier to make sure that 
we are not making our marines, and soldiers for that matter, 
uncomfortable. And certainly I agree with you that being 
uncomfortable can be as big a detriment as, you know, not 
having a safe helmet at all to begin with.
    Mr. Runyan. Thank you. Mr. Chairman, I yield back.
    Mr. Bartlett. Thank you very much. Now to our visiting 
member, Mr. Coffman, who is one of the hardest working members 
of our full committee. Thank you for joining us, sir.
    Mr. Coffman. Thank you, Mr. Chairman. And thank you for 
your service to our country and your testimony today. I know 
the United States Marine Corps is trying to transition to 
become a lighter force. And so I wonder if you can, in respect 
to that statement, in what we are talking today, tell me 
about--drill down a little bit more in the transition of where 
you see us moving to. Because, you know, we have got a lot of 
heavy vehicles. You know, the United States Marine Corps is an 
amphibious force. It is an expeditionary force. It is supposed 
to be a lighter force. And yet it has become a very heavy 
force. And so I wonder if you can shed some light on that.
    General O'Donohue. Yes, sir. I will start, and then pass 
it. Tied to our mission, obviously an expeditionary force and 
readiness, as we come out of a protracted counterinsurgency we 
have shed vehicles, as I talked about before, even just in 
numbers, as we look to be lighter. The Commandant has cast us, 
and it was confirmed by SECDEF [the Secretary of Defense], that 
we are the middle weight force. What that means in part is that 
we are strategically transportable. We can get there. We are 
optimized for one of the scarcest and dearest assets we have in 
terms of strategic mobility, whether it be amphibious shipping, 
prepositioning, or airlift. So light is in some ways a matter 
of degree. Much lighter, obviously, than the Army, heavier than 
SOF [Special Operations Forces] in terms of being scalable. And 
then we have a range of missions we have to accomplish, from 
theater security cooperation, crisis response, all the way to 
major at least initial entry force for an MCO [Major Combat 
Operation]. So our gear has to be able to span that range. And 
obviously with the fiscal constraints in terms of how we 
transition is also a factor. It is one the Commandant has 
charged us with. It could be as small as a countersniper device 
on a helmet that weighs four ounces. The Commandant is asking 
how much does it weigh. So we have made weight and strategic 
mobility a key performance parameter in the systems we have. 
And we are looking at from the individual to the squads and the 
entire MAGTF [Marine Amphibious Group Task Force] reducing it. 
And there are a number of initiatives, from R&D, to 
acquisitions, to just getting to a smaller profile in terms of 
number of vehicles that are part of that. So it is a wide-
ranging campaign.
    And I know my partners here have some more on that, sir.
    Mr. Coffman. Maybe you can drill down on this. And that is 
let's assume at some point we are out of Afghanistan. Let's 
draw the scenario that we are no longer in Afghanistan, no 
longer in Iraq.
    General O'Donohue. Yes, sir.
    Mr. Coffman. So the Marine Corps is not then engaging in an 
active counterinsurgency war. So what do you do with all these 
MRAPs in terms of where do they organizationally fit in terms 
of as far as the table of equipment goes?
    General O'Donohue. Yes, sir. We are under extensive review. 
And the MRAP is a perfect example. We do core missions that 
every Marine unit is equipped with as a force in readiness. And 
they are there as kind of core plus, they are above their 
standard mission set. The MRAP fits the category above the 
standard mission set. So we can reduce from a combination of 
MATVs and MRAPs of about 4,000 to a range of somewhere between 
1,500 to about 2,500. Those are kept and preserved. There will 
be a limited amount for training. And then if we get into 
circumstances where they are required, that smaller equipment 
set, and we shed the burden of carrying a much larger force for 
tactical and counterinsurgency is available.
    Mr. Coffman. So they are not going to be, obviously, let's 
say we are not--we go back to the Marine Corps prior to 9/11 
more or less. I mean we have obviously learned some things we 
changed from that. So they are not going to be organic to an 
infantry battalion. Is there anybody that they would be organic 
to?
    General O'Donohue. A few. EOD, engineers, a small category 
of those numbers. The other important point is our mission set 
is we focus on mobility, not just strategic, but also 
operational and tactical. So our vehicles have a weight limit, 
and we put a high premium on giving options to the commander. 
He can cover a lot of uncertain ground, he is not channelized 
to roads like the MRAP is. So part of being that light middle 
weight force is making sure we build in our vehicles and in our 
marines the ability to be mobile. And that is reflected in the 
entire equipment set. JLTV, rather than MRAP, our amphibious 
combat vehicle, the premium is on keeping it low weight and 
keeping it survivable, but also mobility gives you a 
survivability because you have many more choices for a 
commander, and the enemy can't predict where you are going to 
be.
    Mr. Coffman. Okay. Thank you, Mr. Chairman. I yield back.
    Mr. Bartlett. Mr. Wilson, do you have questions?
    Mr. Wilson. Thank you, Mr. Chairman. And I would like to 
thank our witnesses for being here today. I am very grateful 
and honored to represent Parris Island. And my experiences 
there, Marine Corps Air Station Beaufort, the Naval Hospital in 
Beaufort, it is just inspiring. Just last month, Chairman Jeff 
Miller of the Veterans' Affairs Committee was one of the 
reviewing officials for graduation. And it just is such an 
awesome and wonderful reminder of the opportunity that young 
people have to serve who are serving in the Marine Corps. So 
thank you for your service.
    And General Kelley, you have stated your support for the 
joint light tactical vehicle, JLTV, program. I understand that 
there are some manufacturers who could provide vehicles in the 
same rapid timeline as the mine-resistant ambush-protected 
vehicle, MRAP. The current engineering and manufacturing 
development phase for the JLTV is scheduled to take 34 months. 
Would the Department consider revising the JLTV acquisition 
strategy to move into production more quickly along the lines 
of the MRAP?
    Mr. Taylor. Sir, I will take that. The JLTV actually falls 
under my portfolio. I will address it in this manner. Our best 
estimate right now is that the EMD [Engineering and 
Manufacturing Development] phase will take approximately 33 
months. I am going to steal one of those months away from you. 
In addition to that, we are never satisfied with either cost or 
schedule. We are always looking for ways to drive those down. 
We had a meeting just this morning with the Commandant. And I 
can tell you with respect to requirements, we have done all we 
can. And General O'Donohue can elaborate on that. But we have 
done all we can early in the development effort in terms of 
cost-informed trades. So the requirements, there is no gold 
plating. The General expounded on that. But we are where we are 
with requirements. So about all that remains to focus on in 
terms of trying to reduce cost and schedule is schedule itself. 
So we would consider the potential for trading schedule for 
cost or vice versa. But we plan on continuing to look at ways 
within the Department to do that.
    There is risk in terms of industry's side. We want to keep 
the competition field as broad as possible, because that 
benefits not only the government in terms of keeping the unit 
price down, but it also has benefits for the industrial base. 
So we want to keep the competitive field as broad as possible. 
So there are potential risks to schedule if we compress that 
time frame too much in terms of keeping the large competitive 
field.
    So where we are really focusing our attention is inside the 
building, and what we can do in terms of documentation 
requirements, oversight requirements, testing, et cetera. So 
that is where our primary focus is right now, to see if we can 
free up additional schedule.
    General O'Donohue. Sir, just to pick up on that, there is a 
narrow window where the Marine Corps can afford to buy the JLTV 
as we sequentially modernize and phase the ACV. We have a very 
aggressive schedule that starts in December with a proposal for 
an RFP [Requests for Proposal]. So any delay, whether it is 
continuing resolution and we don't get special authorization, 
or any other kind of actions, would kind of unhinge the 
strategy. So time for the Marine Corps and schedule is an 
imperative in every respect, sir.
    Mr. Wilson. And General O'Donohue, you have very 
interesting challenges as you are looking at different issues. 
One that is ahead is in regard to possibly the Marine Corps 
participating in the Army's new infantry carbine program. Will 
you participate or not?
    General O'Donohue. Sir, we have looked hard at our infantry 
weapons. And there are several aspects of it. How do you train 
the marine? What ammunition do you use? And the weapon itself. 
We even considered our new IAR [Infantry Automatic Rifle], the 
automatic weapon that replaced the SAW [Squad Automatic Weapon] 
with more precision and less weight. We believe the most cost-
effective means of meeting our profile right now is product 
improvement to the M16A4. We have a different mission profile. 
We are dismounted. We have got infantry. There is caseless 
ammunition, which is in the future, which we are doing a lot of 
research and development. Not ready yet. A threshold difference 
like that would cause us to reconsider our service rifle. Right 
now the most cost-effective strategy is product improvement to 
the M16A4, sir.
    Mr. Wilson. And in line with that, do the Marines plan to 
procure a new carbine to replace the M4 or M16? What is the 
Marine Corps' current and future strategy or plan for a new 
primary small arms weapon?
    General O'Donohue. Sir, there is no replacement for the 
carbine. In the small arms, sir, are you talking about the 
pistol or----
    General Kelley. Sir, I know that we have a close quarter 
battle pistol program that we are considering right now. And I 
can take that one for the record if you like, sir, to get you a 
little bit more detail on that.
    Mr. Wilson. That would be fine.
    [The information referred to can be found in the Appendix 
on page 41.]
    General Kelley. About our infantry assault rifle, I don't 
know if that was the point you were trying to make there, sir.
    Mr. Wilson. If you could go into that also.
    General Kelley. Certainly, sir. The infantry assault rifle, 
you know, we should start--we have already fielded some in 
limited quantities out in Afghanistan to get our marines' user 
assessment. It is performing exceptionally well. We should 
start fielding that weapon in February of 2012, so next year. 
And we should complete that fielding of about 4,000-plus 
infantry assault rifles, that should finish up in about April 
of 2013, sir.
    Mr. Wilson. Thank you very much. And I also want to commend 
you on my visits to Parris Island to see the marksmanship 
training, to see the sighting. It is just so impressive and how 
capable these young people are. It just warms your heart. Thank 
you very much.
    Mr. Bartlett. Thank you. In my opening comments I regretted 
the fact that we have not developed a new national strategy for 
how we will use our military in the future. About every 6 hours 
we have another billion dollar deficit, which means another 
billion dollars in debt. We spend almost as much on our 
military as all the rest of the world put together. And we 
spend more on our military than the next 11 countries in the 
world combined. And nine of those are allies of ours.
    The Ryan budget, which is a very tough budget, doesn't 
balance for 25 years. With the reality of where we are 
budgetwise in our country, there are obviously going to be 
those who will say that we will never balance the budget, that 
our country will go bankrupt unless there are additional cuts 
to defense. There is no way of knowing where this dialogue will 
end.
    What I would like you to do for the record is to assume the 
sequester sets in and that the Congress has the wisdom to 
permit you to use that money as wisely as you can, rather than 
across-the-board cuts the way it is now structured, so that you 
can develop the best possible Marine Corps with the moneys that 
you have. This will be very useful in advising the development 
of a new national strategic strategy, new national strategy, 
whatever the amount of money available might be.
    [The information referred to can be found in the Appendix 
on page 41.]
    Mr. Bartlett. I have a few questions I need to ask that 
were not asked by my colleagues. Most of them were. What is the 
status of the Marine Personnel Carrier program? Given the 
current budget environment, do you believe this program is 
affordable and justified?
    General O'Donohue. Sir, right now the MPC [Marine Personnel 
Carrier] is in research and development. It has a utility in 
multiple ways. It is a highly leveraged RDT&E [Research, 
Development, Test, and Evaluation] funding that is in the 
fiscal year 2012 budget, and it is in several respects, and I 
will describe those. The first is as we start looking at an 
amphibious combat vehicle, and we are in the process of doing 
analysis alternatives, having a connector with the wheeled 
vehicle, which would be the Marine Personnel Carrier, MPC, 
would be one of the options for it. This summer or in the early 
fall we will have a decision on that.
    Secondly, in our portfolio we are looking at mixed wheeled 
and tracked vehicles. We talked about earlier in the testimony 
the advantages of the Stryker. The survivability of wheeled 
vehicles is high, the mobility as well. And we are working in 
fact with a state of the art technology demonstrator that 
proves to us that we can get a commercial-off-the-shelf 
capability that is very effective.
    The other aspect, we are managing our three replacement 
programs for the EFV [Expeditionary Fighting Vehicle], the AAV-
SLEP [Amphibious Assault Vehicle-Service Life Extension 
Program], the ACV, and the MPC under one program manager. And 
we are using the money that is in the current budget to 
experiment with aspects that affect all of them. So the money 
is really in the category of experimentation.
    And then lastly, as we look at an LAV [Light Armored 
Vehicle] replacement, we are learning things from the RDT&E. 
Very highly leveraged. We are looking at fiscal year 2014, a 
decision point. If we have survivability in the ACV that makes 
it a common fleet vehicle, then we will shift from eight and 
four mix, eight battalions of the ACV and four battalions of 
MPC, we would be able to shift over maybe to a pure fleet.
    So the money we have right now doesn't reflect a program 
decided. It reflects a judicious investment so we can learn and 
leverage and inform the different areas that I described, sir.
    Mr. Bartlett. Thank you. What is the schedule for the 
enhanced combat helmet? When do you expect to begin fielding 
this helmet in Afghanistan?
    General Kelley. Sir, I know I am probably not supposed do 
this, but thank you for asking that question. Based on a 
comment I made last March, the enhanced combat helmet program, 
we had noticed some anomalies last March, if you remember when 
I had a chance to talk to you the last time. Today, November 
16, the enhanced combat helmet is going to enter into its First 
Article Test series number two. And we are really looking 
forward to that test. This has been probably one of the best 
collaborative ventures that I have seen between industry, 
director of operational test, our own Marine Corps operational 
test and evaluation activity, and our program manager at Marine 
Corps Systems Command.
    We think after having flushed out the test protocols 
rigorously this past summer that ECH is going to pass its First 
Article Test well. It will pass its full up system level 
testing immediately to follow that. There is a series of 
reports, as you well know, one that will have to come to the 
Congress, and also a Beyond LRIP [Low Rate Initial Production] 
report, and then we should start fielding in late spring, early 
summer of 2012, sir.
    Mr. Bartlett. Thank you. In your opinion, are there 
opportunities to improve commonality and jointness between the 
Army and Marine Corps across the modernization account? For an 
instance, how do the Army and Marine Corps coordinate on the 
development and fielding of tactical wheeled vehicle solutions 
that address similar needs and requirements of both Services?
    General O'Donohue. Sir, the story of this war has been 
almost complete integration between Army and Marines, both 
tactically, where Marine battalions have worked for Army 
brigades, and Army brigades have worked for Marine divisions. 
Likewise, actually in the requirements and acquisition, we work 
very, very closely. We meet almost every other month, it is 
actually monthly at some level, every other month at the 
general officer level with the Army leadership to discuss 
opportunities like that. General Bo Dyess is my counterpart. We 
meet quarterly with our full staffs to do a staff review. So in 
every respect--in fact, the JLTV is a shining example of where 
we went through some knowledge points, worked together as a 
Service, and were able to come up with a program that meets 
both Service needs, sir.
    Mr. Taylor. Sir, I would also add that on the programmatic 
and development side we go to where the infrastructure exists. 
In fact, we have actually signed a memorandum of agreement with 
the Army's TARDEC [Tank Automotive Research, Development, and 
Engineering Center], and we actually take advantage of their 
engineering infrastructure to work some of our joint 
engineering issues.
    Mr. Bartlett. Thank you. Mr. McIntyre.
    Mr. McIntyre. I have no questions right now. Thank you, Mr. 
Bartlett.
    Mr. Bartlett. Let me ask the other members of our 
subcommittee, do you have additional comments or questions?
    Mr. Reyes. I just wanted to follow up on a question that my 
colleague from Missouri asked, and maybe get a little more 
detail. When she was talking about the mandated cuts of the 
Budget Control Act, I think she asked how big a portion of 
those cuts would be made from the Marine Corps procurement 
accounts. But I am not sure I heard the answer. Can you tell 
us? Do you have that information?
    General O'Donohue. Sir, I don't. I know the Commandant has 
talked about how we have three areas that we go at it. And that 
would assume how DOD would apply them based on strategy. Again, 
we have made the payroll, as the force and readiness, O&M is 
obviously key to that, that we would have to maintain to be 
ready. There is a personnel piece, keeping faith with the 
marines. Again, the Marine Corps has gone through a 
capabilities-based review. We start with a 202,000 Marine 
Corps. Based on strategy, based on the roles of force and 
readiness we have come with a 186,800 force. It would require, 
to keep faith with the marines, a judicious drawdown. We are 
not doing RIFs [Reduction in Forces] to combat veterans and 
those things. So the timing of it is important in terms of 
degree, in terms of going after that. And then we have talked 
about how small the Marine Corps modernization account is on 
the ground side, about .6 percent of DOD. So a minor impact--or 
a minor cut has a large impact. Those things I think have to be 
sorted out at the OSD level in terms of prioritization rather 
than just a strict proportionality. If it were strictly a 
proportional cut it would be damaging to the Marine Corps, and 
we would have to reevaluate the strategy in terms of how we go 
about doing that.
    Mr. Reyes. So based on that answer, at what point do you 
think you will be able to tell the committee, you know, the 
types of cuts that you would be forced to make as a result of 
this act? Because a number of us are concerned about not just 
these cuts, but any additional cuts that might be taken out of 
the Marine, the Army, and other budgets.
    Mr. Taylor. I can't speak to specific impacts to specific 
programs, but I can talk in general themes. In terms of 
government programmatics, it will obviously become extremely 
difficult at best or near impossible at worst to launch new 
programs, and it will certainly be extremely difficult to keep 
existing programs stable in terms of funding and schedule. In 
fact, some of the detailed implications are stretching out both 
development and procurement rates to field the ultimate 
capability.
    And then there is also implications for industry and there 
is a most recent example, very similar to what we are 
experiencing on the shipbuilding front, now on the ground 
vehicle side we are starting to see some contraction. Just 
recently it was announced that General Dynamics may procure FPI 
[Force Protection Incorporated]. We have also seen vendors who 
are not normally in the ground vehicle business. They are now 
trying to partner. They may not survive in certain scenarios.
    Some of the specific implications of that, perhaps a part 
of foreign pricing rate agreements that vendors must negotiate 
with DCAA [Defense Contract Audit Agency]. Part of that 
equation is assessing the current state of their business base 
and, in addition to that, another aspect of the equation is 
making predictions about their future business base. What this 
equates to to the government is probably a higher forward 
pricing rate agreement whether this comes to fruition or not. 
So we are probably already incurring risk as a result--very 
much like the markets, just reaction to the perception of risk 
will probably drive up labor rates.
    Mr. Reyes. And that is very helpful because oftentimes we 
have to articulate those consequences, you know, internally as 
we debate how we move forward and--because the reality is that 
it is such a huge defense budget that there are knives at every 
level that are looking for chunks to cut out. So that is why we 
ask these questions. So I appreciate that answer, and I want to 
associate myself with the chairman, that we--it is important to 
have a national strategy, a cohesive understanding of how our 
military is going to move forward as we deal with these budget 
shortfalls.
    Thank you, Mr. Chairman.
    Mr. Bartlett. Thank you. Now we return to Mr. McIntyre.
    Mr. McIntyre. Thank you, Mr. Chairman. Gentlemen, given the 
constrained budget environment, what concerns do you have about 
the ability to maintain night vision goggle production capacity 
and technological capability? And specifically what planning, 
review or assessment are you undertaking to better understand 
these challenges so that we can sustain this critical program?
    General Kelley. Currently, sir, we don't have any further 
requirements for purchasing of night vision goggles. In our 
plan right now we are really just planning for replacement in 
the outyears.
    Mr. McIntyre. Do you believe that strategy is going to be 
adequate given the demands of the theater?
    General Kelley. Given the current demand right now, we feel 
that the budget is adequate, sir.
    Mr. McIntyre. With regard to vehicle protection, my 
understanding is there is research being done by the DOD, by 
the Army and the Marine Corps advancing both material and 
nonmaterial solutions to the constantly changing threat of 
IEDs. Are these various research efforts sufficiently 
coordinated to bring forth solutions in the most timely manner? 
Is there any coordination going on between these three aspects 
of research?
    Mr. Taylor. There is coordination at multiple levels, both 
in the S&T [Science and Technology] world, across numerous 
fronts and then also in the actual later development efforts, 
again as previously mentioned, an MOA [Memorandum of Agreement] 
that we entered with the Army's TARDEC. There is a joint center 
for ground vehicles and that is one of the themes that has been 
raised in numerous forms. So there is joint collaboration and 
communication on this front. But to the best of my knowledge 
there has been no new alloys discovered. So for the most part 
it comes down to things like composites or specialty metals, 
and certainly that becomes part of the discussion in cost in 
foreign trades in terms of the cost to provide these new 
technologies.
    Mr. McIntyre. So you mention composite and materials and 
alloys. So there is not other technology that we can anticipate 
that is about to emerge other than looking at the 
lightweightness of the armor, so to speak?
    Mr. Taylor. I didn't mean to allude that those were the 
only areas. I wouldn't consider myself a subject matter expert, 
but I am certain there are.
    Mr. McIntyre. Does anybody else know on the panel? Okay. If 
you could check into that and get back to us. Mr. Chairman, I 
would ask if you would in 5 business days let us know what 
those other areas may be.
    Mr. Taylor. Yes.
    [The information referred to can be found in the Appendix 
on page 41.]
    Mr. McIntyre. Thank you very much, Mr. Chairman.
    Mr. Bartlett. Thank you very much. Another element in the 
discussion as to how much money we will spend in the future on 
defense is the recognition that our robust defense spending in 
the past and our willingness to protect has encouraged many of 
our allies to be quite parsimonious in their defense spending. 
So much so that in this little operation in Libya, our NATO 
allies ran out of missiles, bombs and ammunition. Hopefully a 
new assessment of what is there in defense spending will create 
a foreign sales market that may help ease the challenge we have 
where about every 12 hours there is another billion dollar 
trade deficit.
    When we have had a chance to review your testimony and the 
questions and answers, we may need to ask you additional 
questions for the record. We trust that you will be available 
to answer those. If there are no additional comments on part of 
my colleagues, I will thank you very much for your service and 
for being with us today, and our subcommittee now stands in 
adjournment.
    [Whereupon, at 3:05 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                           November 16, 2011

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           November 16, 2011

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T2415.001
    
    [GRAPHIC] [TIFF OMITTED] T2415.002
    
    [GRAPHIC] [TIFF OMITTED] T2415.003
    
    [GRAPHIC] [TIFF OMITTED] T2415.004
    
    [GRAPHIC] [TIFF OMITTED] T2415.005
    
    [GRAPHIC] [TIFF OMITTED] T2415.006
    
    [GRAPHIC] [TIFF OMITTED] T2415.007
    
    [GRAPHIC] [TIFF OMITTED] T2415.008
    
    [GRAPHIC] [TIFF OMITTED] T2415.009
    
    [GRAPHIC] [TIFF OMITTED] T2415.010
    
    [GRAPHIC] [TIFF OMITTED] T2415.011
    
    [GRAPHIC] [TIFF OMITTED] T2415.012
    
    [GRAPHIC] [TIFF OMITTED] T2415.013
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           November 16, 2011

=======================================================================

      
             RESPONSE TO QUESTION SUBMITTED BY MR. BARTLETT

    General O'Donohue, General Kelley, and Mr. Taylor. The Marine Corps 
conducted a capabilities-based Force Structure Review (FSR) one year 
ago in order to evaluate and refine the organization, posture and 
capabilities required of America's Expeditionary Force in Readiness in 
a post-OEF security environment. The Marine Corps employed a panel of 
senior officers (colonels) representing all elements of the Marine 
Corps. The panel received guidance from the Commandant, applied 
operational planning scenarios of the future, and developed a force 
structure that satisfied both from a capabilities perspective. In this 
way, the Marine Corps directly tied anticipated operational workload to 
planned reductions in manpower. The results of the FSR detailed a 
Marine Corps force that is specifically tailored in capability to 
anticipated workloads. Additionally, the Marine Corps is presently 
conducting a review of all civilian billets and service contracts. This 
three phase review began in July of 2011. We are also developing 
policies supporting the direction given by USD (P&R). These policies 
will be published in Marine Corps Orders which guide the development of 
our total force.
    Although the world is continuing to change and budgets continue to 
fluctuate, America's requirement to maintain a forward based force-in-
readiness remains. Physical presence matters. It shows our economic and 
our military commitment to a particular region. It deters potential 
adversaries, assures our friends, and permits response to crises in a 
timely manner. Our current combination of amphibious, air borne and, 
prepositioned forces provide the minimal capacity to realistically 
address this challenge. During these times of constrained resources, we 
remain committed to refining operations, identifying efficiencies, and 
reinvesting savings to conserve scarce public funds. [See page 15.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. MCINTYRE
    Mr. Taylor. The Marine Corps is actively pursuing emerging 
technologies such as lightweight materials and ammunition, improved 
fire control systems, and an integrated approach to the next generation 
of small arms weapons, optics, enablers, and ammunition. Joint Service 
Combat Developers are leveraging recent capabilities based analysis to 
define the Joint Service Small Arms Modernization (JSAM) Initial 
Capabilities Document (ICD). [See page 19.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. WILSON

    General Kelley. The Marine Corps currently has three pistols in 
operational use: the M9 9mm Service Pistol, the M9A1 9mm Pistol, and 
the M45 .45 Caliber Special Operations Pistol. The M9 is the service 
pistol issued to senior Marine Officers (O-6 to O-9), all Navy 
Officers, and senior Navy enlisted (E-6 to E-9). The M9A1 provides a 
rail to mount laser pointers and lights and is issued primarily to 
security forces and law enforcement personnel. The M45 is the .45 
caliber pistol issued to reconnaissance and Marine Corps Special 
Operations Command (MARSOC) personnel.
    We are currently in source selection for a commercial-off-the-shelf 
(COTS) materiel solution to replace the Quantico Weapons Training 
Battalion, Precision Weapons Section (PWS) hand-built M45. The new COTS 
pistol will be a modified 1911 with Picatinny Rail and classified as 
the Close Quarters Battle Pistol (CQBP). The CQBP approved acquisition 
objective is approximately 4,000 pistols.
    Along with the U.S. Army, the Marine Corps is evaluating the 
service pistol requirement and M9 service life. The Joint Requirements 
Oversight Council has already approved a Modular Handgun System (MHS) 
Capabilities Production Document (CPD) that would provide the 
requirements foundation for the next generation Joint Service handgun. 
Marine Corps combat developers actively participated in MHS CPD 
development, which focused on ergonomics, lethality, interoperability 
and reliability. Based on the satisfactory performance of the M9, 
relatively limited distribution of the service pistol, the increasingly 
constrained fiscal environment, and competing priorities for limited 
resources, the Marine Corps has not adopted the MHS requirement. The 
MHS remains an option to fill our service pistol requirement should the 
demand signal arise and resources become available. [See page 14.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           November 16, 2011

=======================================================================

      
                  QUESTIONS SUBMITTED BY MR. BARTLETT

    Mr. Bartlett. If Budget Control Act automatic proportional cuts are 
required for procurement, RDT&E and O&M for the Marine Corps then what 
impact would that have on the Marine Corps' ability to execute the 
National Military Strategy? Essentially, what is keeping you up at 
night?
    General O'Donohue, General Kelley, and Mr. Taylor. Cuts at the 
level anticipated with sequestration will likely cause irreversible 
damage to the Marine Corps as well as our industrial base. It will 
hollow the Marine Corps and cause us to be out of balance in manpower, 
procurement and modernization. Summarily reducing procurement accounts 
will damage the industrial base, which may not recover. The result of 
such cuts would deny our nation the military superiority required in 
the current and future complex and challenging security environment.
    Sequestration would require the Department to completely revamp the 
National Security Strategy and reassess our ability to shape the global 
environment in order to protect national interests. The nation would 
incur an unacceptable level of strategic and operational risk, which 
may prove catastrophic the next time our nation is called upon to 
respond to a global crisis.
    Mr. Bartlett. Please walk us through the Army and Marine Corps 
Requirements Board process: How often do you meet? What have been some 
of the major results of your meetings? Are joint requirements generated 
during these meetings?
    General O'Donohue, General Kelley, and Mr. Taylor. The Army-Marine 
Corps Board (AMCB) is a 3-star level deliberative body co-chaired by 
the Service resource directors--the Army G-8 and Marine Corps Deputy 
Commandant, Programs and Resources (DC P&R). Regular members include 3-
star or equivalent representatives from the operations and plans, 
requirements, doctrine, and acquisition communities. There are 4 steps 
involved in bringing topics before the AMCB:

    1. Issue Identification. Topics are normally high level Army/USMC 
focused issues, e.g., concepts, capabilities/requirements, programs. 
These issues may come from the previous POM cycle, OSD Program Reviews, 
or as a result of new initiatives. The topic list is ever-changing as 
issues emerge.

    2. Issue Development. The AMCB will assign issues to responsible 
subject matter expert (SME) teams and provide guidance concerning 
scope, timing and desired output. These SME teams, who are comprised of 
both Army and Marine members, will then develop assessments 
incorporating capabilities, Service approved requirements, and cost.

    3. Issue Review. AMCB issue briefings normally employ a two-step 
review process. First, a Council of Colonels will meet at least three 
weeks prior to convening the AMCB to refine the issue briefing. Next, a 
Flag/General Officer review (one/two star level) will convene two weeks 
prior to ensure the issue is sufficiently developed and merits three-
star consideration.

    4. Issue Resolution. SME team leaders will brief the issues, 
analyzed courses of action (COA), and recommendations to the AMCB. The 
AMCB will either make a decision and assign actions to members; elevate 
the issue to the Chief of Staff, Army and Commandant of the Marine 
Corps for adjudication and resolution; or refer the issue to the SME 
team for further assessment and COA development.

    The AMCB meets approximately eight to ten times a year.
    AMCB accomplishments over the past four years include the 
following:

    <bullet>  Agreement on Mine Resistant Ambush Protected (MRAP) 
vehicle requirements and, more recently, MRAP All Terrain Vehicle 
(MATV) requirements.

    <bullet>  Agreement on the Joint High Speed Vessel (JHSV) 
requirements.

    <bullet>  Continued collaboration on body armor and helmet 
requirements.

    <bullet>  Continued collaboration on small arms requirements.

    <bullet>  Convergence on Service ammunition requirements.

    <bullet>  Continued collaboration on JLTV.

    Joint requirements are not generated by the AMCB. The AMCB serves 
as a forum for collaborating on and discussing Service and joint 
requirements that impact both land components. Formal requirements are 
generated through the Joint Capabilities Integration Development System 
(JCIDS).
    Mr. Bartlett. What impact is the continuing resolution (CR) having 
on modernization programs for equipping dismounted soldiers and 
marines?
    General O'Donohue, General Kelley, and Mr. Taylor. While the 
Continuing Resolution (CR) that extends through December 16 does not 
pose significant challenges to the Marine Corps' modernization 
programs, the impacts grow dramatically as the year continues. Under a 
CR, Department of Defense policy requires the Services to manage funds 
at the line item or program level vice at the appropriation level, 
thereby limiting flexibility to reallocate funds to higher priority 
requirements requested in the pending appropriations legislation. New 
starts and military construction cannot be initiated under a CR without 
specific approval; and individual projects must be specifically 
authorized and appropriated.
    A CR extended beyond the end of the calendar year would begin to 
create problems with modernization programs. The more significant 
problem created by an extended CR would be an unmanageable shortfall in 
the Marine Corps manpower account. Ultimately, a long term CR creates 
challenges for equipment levels, training readiness, and our Marines' 
quality of life until there is a final appropriations bill.

    Mr. Bartlett. Does the Marine Corps plan to pursue a new handgun? 
Does a validated requirement exist for a new handgun and if so, is a 
new handgun a high priority for the Marine Corps?
    General O'Donohue and General Kelley. The Marine Corps currently 
has three pistols in operational use: the M9 9mm Service Pistol, the 
M9A1 9mm Pistol, and the M45 .45 Caliber Special Operations Pistol. The 
M9 is the service pistol issued to senior Marine Officers (O-6 to O-9), 
all Navy Officers, and senior Navy enlisted (E-6 to E-9). The M9A1 
provides a rail to mount laser pointers and lights and is issued 
primarily to security forces and law enforcement personnel. The M45 is 
the .45 caliber pistol issued to reconnaissance and Marine Corps 
Special Operations Command (MARSOC) personnel.
    We are currently in source selection for a commercial-off-the-shelf 
(COTS) materiel solution to replace the Quantico Weapons Training 
Battalion, Precision Weapons Section (PWS) hand-built M45. The new COTS 
pistol will be a modified 1911 with Picatinny Rail and classified as 
the Close Quarters Battle Pistol (CQBP). The CQBP approved acquisition 
objective is approximately 4,000 pistols.
    Along with the U.S. Army, the Marine Corps is evaluating the 
service pistol requirement and M9 service life. The Joint Requirements 
Oversight Council has already approved a Modular Handgun System (MHS) 
Capabilities Production Document (CPD) that would provide the 
requirements foundation for the next generation Joint Service handgun. 
Marine Corps combat developers actively participated in MHS CPD 
development, which focused on ergonomics, lethality, interoperability 
and reliability. Based on the satisfactory performance of the M9, 
relatively limited distribution of the service pistol, the increasingly 
constrained fiscal environment, and competing priorities for limited 
resources, the Marine Corps has not adopted the MHS requirement. The 
MHS remains an option to fill our service pistol requirement should the 
demand signal arise and resources become available.
    Mr. Bartlett. Given limited industrial base for night vision 
goggles and the future constrained budget environment what concerns do 
you have about the ability to maintain Night Vision Goggle (NVG) 
production capacity and technological capability?
    General O'Donohue and General Kelley. There are no planned 
procurements for Image Intensifier systems in FY2012 and only a limited 
quantity to replace losses in future years (planning figure of 300 per 
year). A 2010 Image Intensifier (I2) Tube Industrial Capability 
Assessment conducted by DCMA's Industrial Analysis Center (IAC) 
concluded that, ``[i]f DOD requirements decrease as projected, there is 
a strong possibility that one competitor will exit the market and the 
remaining producer will likely rationalize their current operations to 
meet the market demand.'' This would ``likely result in lack of 
competition, stagnation of future innovation and development, decreased 
surge capacity as well as the potential for increased unit cost.'' DMCA 
IAC recommended ``a periodic assessment of the financial viability of 
key companies engaged in I2 tube production.'' The Marine Corps 
continues to engage with Industry and the Department of Defense to 
monitor I2 industrial base concerns.

    Mr. Bartlett. I understand the Marine Corps plans to divest 
approximately 10,000 vehicles from its tactical vehicle fleet and 
further the Marine Corps is in the process of revising many acquisition 
objectives across the combat and tactical vehicle fleets. Can you walk 
us through your ground combat and tactical vehicle strategy? How are 
you factoring in MRAP vehicles?
    General Kelley and Mr. Taylor. The Marine Corps requires the 
ability to maneuver and sustain combat power across the range of 
military operations and in various environments. The combat and 
tactical vehicles required to achieve this must provide appropriate 
force-level maneuver and sustainment capabilities that are both 
compatible with rotary-wing and surface assets and complementary to 
enhance tactical flexibility and minimize risk. The Ground Combat and 
Tactical Vehicle Strategy (GCTVS) has, since 2008, been the framework 
within which the Marine Corps manages the future inventory of heavy, 
medium, and light vehicle categories, which are further divided into 
combat and tactical vehicle types. Combat vehicles facilitate maneuver 
of combat teams, while tactical vehicles facilitate the distribution of 
sustainment material and services by logistics teams. The three combat 
vehicle and three tactical vehicle categories are correlated to the 
range of military operations and operating environments to meet 
performance, protection, payload, and transportability characteristics. 
The entire portfolio of vehicles will possess these characteristics, so 
as to:

    <bullet>  Support rapid transition between concentration and 
dispersion of Marine Air Ground Task Force (MAGTF) combat power by 
fielding vehicles with modular and adaptable armor in multiple 
capability categories

    <bullet>  Support strategic deployment concepts by closely managing 
transport weights and prepositioning objectives

    <bullet>  Provide capacity to meet and sustain simultaneous Marine 
Corps commitments worldwide by maintaining operational availability and 
optimizing mix and distribution across the enterprise

    In 2010, the Marine Corps concluded that a 10,000 vehicle reduction 
is feasible as reconstitution occurs post-OEF. That reduction supports 
the Marine Corps' re-orientation to its amphibious mission by reducing 
the `footprint' of MAGTFs. That USMC vehicle inventory has also been 
sized to support MAGTFs that employ the concept of \2/3\ of the Marines 
maneuvering by vehicle and \1/3\ of the Marines maneuvering by foot or 
air.
    This 2010 vehicle reduction was directed during Phase II of the 
GCTVS, during one of the four pre-planned Decision Points that control 
execution of the strategy to meet the GCTVS objectives. Future decision 
points will guide planning to inform Program Objective Memorandum (POM) 
14 and POM 16 decisions regarding ground mobility investments. The 
information supporting each decision point will provide cost, 
effectiveness and risk information on alternative courses of action 
relevant to the issues challenging successful fielding of the future 
fleet.
    As we factor use of MRAPs into our vehicle strategy, we start with 
the observation that a significant challenge presented by IED 
protection is its impact on vehicle dimensions. The MRAP-ATV and other 
MRAPs fit into the GCTVS as medium and heavy vehicles conducting light 
vehicle missions in most mission sets. Light vehicles are characterized 
as those that are rotary wing transportable, can be used on Class 12 or 
lighter Route and Bridge networks, and exhibit good soft soil mobility. 
Light tactical vehicles carry less than three tons of cargo and provide 
services associated with small teams of two to five personnel. Light 
combat vehicles are characterized as those that maneuver combat and 
combat support teams of three to five personnel and carry mission 
essential equipment, usually less than two tons.
    A predominance of the 1,100 MRAP vehicles in the Active and Reserve 
force will be used by Engineer and EOD units to conduct Route 
Reconnaissance and Clearance missions (as conducted in theater), 
provide protected mobility to EOD teams, and provide protected mobility 
to combat engineers that are at times called upon to supplement our EOD 
forces for mine and obstacle clearance.
    The Marine Corps is evaluating the full cost of retaining an 
additional 1,400 MRAPs to serve in both light tactical and some light 
combat mission roles in high IED, restricted maneuver environments as 
was the case in Iraq. The full cost of storing these vehicles in CONUS 
and forward positioned sites, when evaluated within the context of the 
projected future budgets, will determine the quantity and extent of the 
Marine Corps' ability to retain these additional vehicles.
    The Joint Light Tactical Vehicle is specifically being developed to 
provide M-ATV-like protection within the light vehicle class. It will 
have the rotary wing lift, mobility, weight, height and payload values 
that characterize the light vehicle. This is important to the Marine 
Corps as it strives to maintain its expeditionary nature (deployable by 
L-Class vessels and USMC aircraft), while providing protected mobility 
to its forces that are deployed in environments with poor or damaged 
infrastructure or in environmental extremes. The JLTV will be 
complemented by the HMMWVs and MRAPs that remain in the inventory to 
provide a portfolio of vehicles, which in combination allow MAGTF 
Commanders to tailor equipment for the mission at hand.
    Mr. Bartlett. The Joint Light Tactical Vehicle (JLTV) acquisition 
strategy has been restructured to make the program more affordable and 
to streamline performance requirements. Can you provide more detail on 
this revised strategy and indicate to the committee whether the Marine 
Corps supports the JLTV program?
    General Kelley and Mr. Taylor. The JLTV is the most cost-effective 
program to meet capability gaps for those light combat vehicles with 
the most demanding missions. The Marine Corps supports the JLTV program 
and is aligned with Army on requirements and affordability. We are 
working together as the program moves toward a Milestone B (MS B) 
decision in April 2012. The Vice Chief of Staff of the Army (VCSA) and 
Assistant Commandant of the Marine Corps (ACMC) have worked together to 
drive down cost and inform industry regarding JLTV requirements. The 
Capabilities Development Document (CDD) is presently in Joint 
Requirements Oversight Council (JROC) staffing, and is on track for 
expedited approval.
    Informed by Technology Development phase, both Services have 
defined a JLTV program that:

    - is an affordable solution to essential capabilities including 
transportability, protection, mobility and payload,

    - is low risk, enabling a streamlined acquisition strategy.

    The streamlined acquisition strategy enables fielding of the JLTV 
meet the most critical light vehicle capabilities (gun trucks, SABRE/
TOW, forward C2) prior to modernization of the Amphibious Combat 
Vehicle. Sequenced modernization of JLTV then ACV is key to affordably 
modernizing the two most critical shortfalls in the Marine Corps' 
Ground Combat and Tactical Vehicle fleet.
    The revised Acquisition Strategy is a direct result of VCSA and 
ACMC engagement and cooperation between the Army and Marine Corps. The 
Engineering, Manufacturing, and Development (EMD) phase has been 
reduced from 48 months to 33 months, reducing cost and schedule, 
resulting in expedited delivery of affordable JLTV capability to our 
warfighters. The EMD phase features the following:

    <bullet>  Up to three vendors to participate in EMD with a down 
select to one in production.

    <bullet>  Firm-fixed Price contract approach for both EMD and 
production; appropriate given the competitive nature of the program.

    <bullet>  12 months for competitors to deliver, test, and integrate 
vehicles in preparation for demanding 14 month government testing and 
evaluation period.
    Mr. Bartlett. The Army is pursuing the Modernized Expanded Capacity 
Vehicle (MECV) program which competitively recapitalizes their Up-Armor 
HMMWV fleet. Are the Marines conducting a similar program? If yes, then 
how does it align with the Marine Corps light tactical vehicle 
strategy?
    General Kelley and Mr. Taylor. The Marine Corps strategy for light 
vehicles is to procure 5,500 Joint Light Tactical Vehicles to meet 
light combat vehicle missions and to extend the service life of the 
remaining 13,000 HMMWVs serving in light tactical missions out to 2030. 
The HMMWV Modification effort was developed in early 2011 as a 
complementary effort to JLTV in order to extend the service life a 
significant number of the HMMWVs which will still make up the majority 
of the light tactical vehicle fleet.
    The Army and Marine Corps collaboratively developed JLTV and 
complementary HMMWV recapitalization requirements and programs during 
this period.
    However, Marine Corps requirements for a mobile, protected, durable 
light tactical vehicle cannot be met by the Army's MECV requirement 
set. For light tactical missions, the Marine Corps needs a two-man 
vehicle that can distribute a 4,000 lb mission payload of support 
services and supplies and a limited number of four-man vehicles that 
can carry 2,300 lbs of mission payload, both of which must travel 70% 
off-road when armored. The Army does not intend to invest to meet this 
requirement.
    The Marine Corps approach for the HMMWV Modification effort is to 
explore the use of state-of-the-art automotive technologies to restore 
the current HMMWV platform to pre-armoring levels of performance in the 
areas of safety, durability, payload, mobility and reliability. These 
improvements will be incorporated into a kit or kits for installation 
at the Marine Corps Depots on the current rebuild lines or competed to 
industry based on best value to the Government. Phases one and two of 
the effort are planned to begin in FY 12 with the selection of 
modification kits, finalization of the design of the kits, and 
integration of the kits onto the HMMWV platforms. The production kit 
testing and technical drawing package development (Phases 3 and 4) will 
continue in FY 13. Proof of principle testing of the production kits 
will be conducted in FY14, with full rate production and integration of 
the kits onto selected HMMWVs commencing in FY15. In addition to the 
HMMWV Modification R&D efforts, the Marine Corps program office will 
also continue to monitor Army Phase One Modernized Expanded Capability 
Vehicle (MECV) efforts that could be leveraged and incorporated to 
improve Marine Corps vehicles.
    Mr. Bartlett. How does the MRAP-All Terrain Vehicle and other MRAP 
vehicles fit into the Marine Corps wheeled vehicle fleet along with 
HMMWVs and JLTVs? Why not just use the M-ATV and MRAPs which have 
proven to be combat effective?
    General Kelley and Mr. Taylor. One of the significant challenges 
presented by IED protection is its impact on vehicle dimensions. The 
MRAP-ATV and other MRAPs fit into our Ground Combat and Tactical 
Vehicle Strategy (GCTVS) as medium and heavy vehicles conducting light 
vehicle missions in most mission sets. Light vehicles are characterized 
as those that are rotary wing transportable, can be used on Class 12 or 
lighter Route and Bridge networks, and exhibit good soft soil mobility. 
Light tactical vehicles carry less than three tons of cargo and provide 
services associated with small teams of two to five personnel. Light 
combat vehicles are characterized as those that maneuver combat and 
combat support teams of three to five personnel and carry mission 
essential equipment, usually less than two tons.
    A predominance of the MRAP vehicles in the Active and Reserve force 
will be used by Engineer and EOD units to conduct Route Reconnaissance 
and Clearance missions (as conducted in theater), providing protected 
mobility to EOD teams and providing protected mobility to combat 
engineers that are at times called upon to supplement our EOD forces 
for mine and obstacle clearance.
    The Marine Corps is evaluating the full cost of retaining an 
additional 1400 MRAPs to serve in both light tactical and some light 
combat mission roles in high IED, restricted maneuver environments as 
was the case in Iraq. The full cost of storing these vehicles in CONUS 
and forward positioned sites, when evaluated within the context of the 
projected future budgets will determine the quantity and extent of the 
Marine Corps ability to retain these additional vehicles.
    The Joint Light Tactical Vehicle is specifically being developed to 
provide M-ATV like protection within the light vehicle class. It will 
have the rotary wing lift, mobility, weight, height and payload values 
that characterize the light vehicle. This is important to the Marine 
Corps as it strives to maintain its expeditionary nature (deployable by 
L-Class vessels and USMC aircraft), while providing protected mobility 
to its forces that are deployed in environments with poor or damaged 
infrastructure, in environmental extremes. The JLTV will be 
complemented by the HMMWVs and MRAPs that remain in the inventory to 
provide a portfolio of vehicles, which in combination allow MAGTF 
Commanders to tailor equipment for the mission at hand.

    Mr. Bartlett. I understand MRAPs and MATVs are being outfitted with 
safety, survivability, and mobility upgrades, most notably the MATV 
underbody improvement kit (UIK). Can you walk us through some of these 
product improvement modifications and provide status updates on them, 
particularly the UIK program? What are the funding issues, if any, 
associated with them?
    General Kelley. The premier safety and survivability enhancements 
that JPO MRAP is in the process of adding to the MRAP Family of 
Vehicles includes improved energy absorbing seats, the underbody 
improvement kit (UIK2) for M-ATV, blast attenuating floor mats, rocket 
propelled grenade nets, and the Universal Combat Lock Tool. There are 
no funding issues associated with the product improvement 
modifications.
                                 ______
                                 
                    QUESTION SUBMITTED BY MR. WILSON

    Mr. Wilson. In the wake of potential Department of Defense (DOD) 
budget cuts and protecting our warfighters, what is the DOD doing to 
ensure it does not do business with companies who are under serious 
investigation for fraud, corruption and questionable business practices 
that threaten a company's financial stability?
    General O'Donohue, General Kelley, and Mr. Taylor. We require all 
contracting officers to utilize the Excluded Parties List System to 
verify whether a prospective awardee has been suspended or debarred 
from receiving a government contract. Award will not be made if the 
contractor is on this list. Another line of defense to find fraudulent 
contractors is through the evaluation of past performance. Department 
of Defense (DOD) contracting officers are required to use past 
performance as a mandatory source selection evaluation factor. 
Additionally, our contracting officers must perform one further check 
on prospective awardees prior to execution of a contract. Specifically, 
DOD contracting officers must evaluate the contractor's overall record 
to determine its responsibility. No award may be made unless the 
contracting officer makes an affirmative determination of 
responsibility for the contractor. As part of the process to determine 
responsibility, contracting officers must check and evaluate 
information contained in the Federal Awardee Performance and Integrity 
Information System. Contracting Officers are also responsible for 
analyzing the financial capability of potential contractors. A 
contracting officer's decision on contractor responsibility must 
consider whether the offeror has adequate financial resources or the 
ability to obtain them to adequately perform the contract. These 
multiple steps provide the government with an increased ability to weed 
out fraudulent contractors.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
